                   U.S. ELECTION ASSISTANCE 

                          COMMISSION
                  OFFICE OF INSPECTOR GENERAL




                             FINAL REPORT:

                  Administration of Payments Received 

                 Under the Help America Vote Act by the 

                 Connecticut Secretary of State’s Election 

                                Division





                    APRIL 15, 2003 THROUGH JANUARY 31, 2010




Report No.
E-HP-CT-07-10
September 2010
                         U.S. ELECTION ASSISTANCE COMMISSION
                                  OFFICE OF INSPECTOR GENERAL
                                 1201 New York Ave. NW - Suite 300
                                       Washington, DC 20005


                                                                                 September 28, 2010

Memorandum


To:        Thomas Wilkey
           Executive Director

From:      Curtis W. Crider
           Inspector General

Subject:   Final Audit Report - Administration of Payments Received Under the Help America
           Vote Act by the Connecticut Secretary of State’s Election Division
           (Assignment Number E-HP-CT-07-10)

       We contracted with the independent certified public accounting firm of Clifton Gunderson
LLP (Clifton Gunderson) to audit the administration of payments received under the Help America
Vote Act (HAVA) by the Connecticut Secretary of State (SOS). The contract required that the audit
be done in accordance with U.S. generally accepted government auditing standards. Clifton
Gunderson is responsible for the attached auditor’s report and the conclusions expressed therein.

       In its audit of the SOS, Clifton Gunderson concluded that, except for the maintenance of
comprehensive equipment inventories and security over voting equipment, our audit concluded that
the SOS generally accounted for and expended HAVA funds in accordance with the HAVA
requirements and complied with the financial management requirements established by the U.S.
Election Assistance Commission. The SOS also complied with section 251 requirements.

        In her July 22, 2010 response to the draft report (Appendix A-1), the SOS agreed with the
report’s finding and recommendations, and provided corrective action. Also, we have included in
the report the EAC response to the draft report (Appendix A-2), dated August 13, 2010, which
indicated general concurrence with the recommendation.

       We would appreciate being kept informed of the actions taken on our recommendations as
we will track the status of their implementation. Please respond in writing to the finding and
recommendation included in this report by November 30, 2010. Your response should include
information on actions taken or planned, targeted completion dates, and titles of officials
responsible for implementation.

        The legislation, as amended, creating the Office of Inspector General (5 U.S.C. § App.3)
requires semiannual reporting to Congress on all audit reports issued, actions taken to implement
audit recommendations, and recommendations that have not been implemented. Therefore, this
report will be included in our next semiannual report to Congress.

        If you have any questions regarding this report, please call me at (202) 566-3125.
                      
                      
     PERFORMANCE AUDIT REPORT
 


ADMINISTRATION OF PAYMENTS RECEIVED
 

             UNDER THE
 

       HELP AMERICA VOTE ACT
 

               BY THE
 

       STATE OF CONNECTICUT
 


  April 15, 2003 Through January 31, 2010


       UNITED STATES ELECTION
 

       ASSISTANCE COMMISSION
 

                      
                      
                      
                      
                      
                      




                     a1 
                                                  TABLE OF CONTENTS




                                                                                                                             PAGE
 


EXECUTIVE SUMMARY ............................................................................................................ 1

BACKGROUND.......................................................................................................................... 2

AUDIT OBJECTIVES ................................................................................................................. 3

SCOPE AND METHODOLOGY ................................................................................................. 4

AUDIT RESULTS ....................................................................................................................... 4

APPENDICES
 


Appendix A-1: Secretary of State Response To Audit Results .............................................. 6

Appendix A-2: U. S. Election Assistance Commission Response to Draft Report............... 8

Appendix B: Audit Methodology .............................................................................................. 9
                        U.S. Election Assistance Commission
 

        Performance Audit of the Administration of Payments Received Under the
 

                  Help America Vote Act by the State of Connecticut
 



EXECUTIVE SUMMARY

Clifton Gunderson LLP was engaged by the U.S. Election Assistance Commission (EAC or the
Commission) Office of Inspector General to conduct a performance audit of the Connecticut
Secretary of State (SOS) for the period April 15, 2003 through January 31, 2010 to determine
whether the SOS used payments authorized by Sections 101, 102, and 251 of the Help America
Vote Act of 2002 (HAVA or the Act) in accordance with HAVA and applicable requirements;
accurately and properly accounted for property purchased with HAVA payments and for
program income, and met HAVA requirements for Section 251 funds for an election fund and for
a matching contribution. Maintenance of Effort was not included in the scope of our audit
procedures. Subsequent to the date of our report, on June 28, 2010, the Commission issued its
revised guidance on the Maintenance of Expenditures (MOE) requirement, which includes a
provision that the states will have 12 months from the date of the policy to submit a MOE plan to
the EAC.

In addition, the Commission requires states to comply with certain financial management
requirements, specifically:

   •		 Comply with the Uniform Administrative Requirements for Grants and Cooperative
       Agreements with State and Local Governments (also known as the “Common Rule”) as
       published in the Code of Federal Regulations 41 CFR 105-71.

   •		 Expend payments in accordance with cost principles for establishing the allowance or
       disallowance of certain items of cost for federal participation issued by the Office of
       Management and Budget (OMB) in Circular A-87, Cost Principles for State, Local, and
       Indian Tribal Governments.

   •		 Submit detailed annual financial reports on the use of Title I and Title II payments.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records and security over HAVA funded
equipment, as discussed below, our audit concluded that the SOS generally accounted for and
expended HAVA funds in accordance with the requirements mentioned above for the period
from April 15, 2003 through January 31, 2010. The exception needing SOS’s management
attention is as follows:




                                                1
    •		 Inventory listings of voting and SVRS equipment did not conform to the requirements of
        41 C.F.R. 105-71.132 (d) (1), (the Common Rule) at the seven towns we visited. The
        listings did not include required elements such as use, condition or the federal, state, or
        county percentage of ownership. Four of the towns did not have inventory records of
        their handicap accessible voting equipment. One town did not have adequate physical
        security controls over its HAVA funded equipment.

We have included in this report as Appendix A-1 the SOS management’s formal response to the
findings and recommendations dated July 22, 2010. The SOS response included the detail
inventory listings, reflecting the changes that had been implemented to resolve the exceptions
noted above, which we did not include in Appendix A-1. The listings would add significant volume
of pages to the report, and will be made available to the EAC upon request for resolution of any
outstanding issues. Although we have included management’s written responses to our notices
of findings and recommendations, such responses have not been subjected to the audit
procedures and, accordingly, we do not provide any form of assurance on the appropriateness of
the responses or the effectiveness of the corrective actions described therein. SOS officials
agreed with our recommendations.

The draft report, including the SOS response, was provided to the Executive Director of the
EAC for review and comment. The EAC agreed with the report’s conclusions and
recommendations as well as the Connecticut officials’ initial responses. The EAC’s complete
response is included as Appendix A-2.


BACKGROUND

HAVA created the Commission to assist states and insular areas with the improvement of the
administration of federal elections and to provide funds to states to help implement these
improvements. HAVA authorizes payments to states under Titles I and II, as follows:

    •		 Title I, Section 101 payments are for activities such as complying with Title III of HAVA for
        uniform and nondiscriminatory election technology and administration requirements,
        improving the administration of elections for Federal office, educating voters, training
        election officials and poll workers, and developing a state plan for requirements
        payments.

    •		 Title I, Section 102 payments are available only for the replacement of punch card and
        lever action voting systems.

    •		 Title II, Section 251 requirements payments are for complying with Title III requirements
        for voting system equipment; and for addressing provisional voting, voting information,
        statewide voter registration lists, and voters who register by mail.

Title II also requires that states must:

    •		 Have appropriated funds “equal to 5 percent of the total amount to be spent for such
        activities [activities for which requirements payments are made].” [Section 253(b) (5)].




                                                 2
    •		 “Maintain the expenditures of the state for activities funded by the [requirements] payment
        at a level that is not less than the level of such expenditures maintained by the state for
        the fiscal year ending prior to November 2000.” [Section 254(a)(7)].

    •		 Establish an election fund for amounts appropriated by the state “for carrying out the
        activities for which the requirements payment is made,” for the Federal requirements
        payments received, for “such other amounts as may be appropriated under law,” and for
        “interest earned on deposits of the fund.” [Section 254(b)(1)].


AUDIT OBJECTIVES

The objectives of our audit were to determine whether the Connecticut Secretary of State:

    1.	 	Used payments authorized by Sections 101, 102, and 251 of HAVA in accordance with
         HAVA and applicable requirements;

    2.	 	Accurately and properly accounted for property purchased with HAVA payments and for
         program income;

    3.	 	Met HAVA requirements for Section 251 funds for an election fund and for a matching
         contribution. We did not determine whether the SOS met the requirement for
         maintenance of a base level of state outlays, because the Commission is reviewing its
         guidance on the applicability of the maintenance of a base level of state outlays to
         subgrantees of the SOS.
In addition to accounting for HAVA payments, the Act requires states to maintain records that
are consistent with sound accounting principles that fully disclose the amount and disposition of
the payments, that identify the project costs financed with the payments and other sources, and
that will facilitate an effective audit. The Commission requires states receiving HAVA funds to
comply with certain financial management requirements, specifically:

    1.	 	Comply with the Uniform Administrative Requirements for Grants and Cooperative
         Agreements with State and Local Governments (also known as the “Common Rule”) as
         published in the Code of Federal Regulations at 41 CFR 105-71.

    2.	 	Expend payments in accordance with cost principles for establishing the allowance or
         disallowance of certain items of cost for federal participation issued by the OMB.
                                                                                                           1
    3.	 	Submit detailed annual financial reports on the use of Title I and Title II payments.




1  EAC requires states to submit annual reports on the expenditure of HAVA Sections 101, 102, and 251 funds.
Through December 31, 2008, for Sections 101 and 102, reports were due on February 28 for the activities of the
previous calendar year, and, for Section 251, reports were due by March 30 for the activities of the previous fiscal
year ending on September 30. Beginning in calendar year 2009, all reports will be effective as of September 30,
20XX for the fiscal year ended that date and will be due by December 31, 20XX.




                                                         3
SCOPE AND METHODOLOGY

We audited the HAVA funds received and disbursed by the SOS from April 15, 2003 through
January 31, 2010 (81-month period) as shown in the following table:
                                      FUNDS RECEIVED
TYPE OF              EAC           PROGRAM          STATE          INTEREST           TOTAL           FUNDS                DATA
PAYMENT            PAYMENT          INCOME          MATCH           EARNED          AVAILABLE       DISBURSED              AS OF


Section 101       $ 5,000,000          $       0   $         0      $     694,358    $5,694,358        $5,264,202     1/31/2010
Section 102                 0                  0             0                  0             0                 0     1/31/2010
Section 251        29,081,608                  0             02         3,645,382    32,726,990        28,903,801     1/31/2010

   Total          $34,081,608          $       0           $0       $4,339,740      $38,421,348      $34,168,003      1/31/2010

Our audit methodology is set forth in Appendix B.


AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on the audit objectives. Because of inherent
limitations, a study and evaluation made for the limited purposes of our review would not
necessarily disclose all weaknesses in administering HAVA payments.

Except for the maintenance of adequate property records, and physical security over HAVA
funded assets, our audit concluded that the SOS generally accounted for and expended HAVA
funds in accordance with the requirements mentioned above. The SOS has taken action on or is
working to resolve the exceptions described below as set forth in Appendix A-1:

I.	 	 Property Records and Security over HAVA Funded Equipment

The equipment listings provided to us by the Connecticut Office of the Secretary of the State
(SOS), and each of the seven towns we visited, did not conform to the requirements of 41
C.F.R. 105-71.132 (d)(1), (the Common Rule). We noted the following:

    1.	 	The listings included a description of the equipment, serial number and the location, but
         it did not include the condition, use, source or federal, state or town percentage of
         ownership.

    2.	 	Four of the seven towns we visited did not have inventory records of their handicap
         accessible voting equipment.

There was one town that had a phone/fax machine stored in a locked wheeled cabinet in an
unlocked room next to the town council meeting room. In the same town we found that a

2 Connecticut did not deposit its state match into the election fund. Instead, it considered expenditures for its state-
funded Statewide Voter Registration System as satisfying its state match.


                                                            4
phone/fax machine was stored in a locked cabinet inside a locked room along with the school’s
athletic equipment. At this school only the school’s athletic staff had keys to the locked room.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132(d)(1), referred to as the Common Rule, states
that property records must be maintained that include a description of the property, a serial
number or other identification number, the source of property, who holds the title, the acquisition
date, cost of the property, percentage of Federal participation in the cost of the property, the
location, use and condition of the property, and any ultimate disposition data including the date
of disposal and sale price of the property. The Common Rule, 41 CFR § 105-71.132(d)(3), also
requires that a control system must be developed to ensure adequate safeguards to prevent
loss, damages or theft of the property.

SOS election officials informed us that they were not aware of the detailed recordkeeping
requirements of the Common Rule.

Recommendations:

We recommend that EAC require that the SOS ensure that the property records at towns
include the minimum information required by the Common Rule, and that HAVA funded
equipment is properly secured and only accessible by authorized election officials.

SOS’s Response:

The SOS concurred with our recommendations and said that inventory listings have been
amended to include the information required by the Common Rule. The SOS has also
promulgated procedures covering security over HAVA funded voting equipment. The SOS said
that her staff had followed up with the town where we found inadequate security over voting
equipment to ensure that the town understands and adheres to federal requirements. In
addition, the SOS’s office plans to provide training to all towns in the state on property inventory
records and security over voting equipment during September 2010.

                               ****************************************

We provided a draft of our report to the appropriate individuals of the Connecticut Secretary of
State, and the United States Election Assistance Commission. We considered any comments
received prior to finalizing this report.

The draft report, including the SOS response, was provided to the Executive Director of the
EAC for review and comment. The EAC agreed with the report’s conclusions and
recommendations as well as the Connecticut officials’ initial responses. The EAC’s complete
response is included as Appendix A-2.

CG performed its work between February 15, 2010 and March 5, 2010.


a1 
Calverton, Maryland
June 1, 2010


                                                  5
                                                                                 Appendix A-1




                                       Susan BysTI.rewTI.ICZ
      July 22,2010                    SECRETARY OF THE STATE
                                          CONNECTICUT

      Mr. Curtis W. Crider
      Inspector General
      u.s. Election Assistance Commission
      Office of the Inspector General
      1201 New York Avenue, NW - Suite 300
      Washington, D.C. 20005

      RE: Response to Draft Report Entitled ."Performance Audit Report - Administration .of
      Payments Received Under the Help America Vote Act by the State of Connecticut"

      Dear Mr. Crider:

      Thank you very much for your letter of June 25, 2010. We are delighted that Clifton
      Gunderson LLP concluded that the State of Connecticut generally accounted for and
      expended Help America Vote Act ("HAV A") funds in accordance with HAV A and
      applicable requirements for the period from April 15, 2003 through January 31, 2010.
      We have worked very hard to meet allofthe requirements ofHAVA in a timely and cost­
      effective way, and we are very proud of Connecticut's leadership in implementing a
      centralized voter registration database, new optical scan voting machines with a voter
      verified and auditable paper trail and other requirements.

      I am writing to address the one exception raised in your report related to the
      completeness of inventory listings:

      Finding:

      The equipment listings provided by the Connecticut Office ofthe Secretary of the State
      and each of the seven towns visited did not did not conform to the requirements of 41
      C.F.R. 105-71.132 (d) (1), (the Common Rule). Although the listings included a specific
      description of the equipment, serial numbers and the location of the equipment, they did
      not include the condition, use or source of that equipment and a designation of the
      federal, state or town percentage of ownership of said equipment.

      Response:

      The listings have already been amended to include the additional items required by 41
      C.F.R. 105-71.132 (d) (1). The revised form is attached. It should be noted that, while
      this information was not specifically contained on the listings, information regarding
      condition, use, source and percentage of ownership was communicated to towns through
      a variety of vehicles, including informational bulletins provided by the office.



STATE CAPITOL, 210 CAPITOL AVENUE, HARTFORD, CT 06106       •   (860) 509-6200   •     FAX (860) 509-6209


                                             6
 Finding:

  Additionally, four of the seven towns visited did not have inventory records of their
  accessible voting equipment. It was also noted that, in one town, one phone and fax
  machine used for accessible voting was stored in a locked cabinet on wheels, but was in
  an unlocked room next to the town council meeting room and in another instance in the
  same town, the equipment was properly locked up in a school, but auditors were told that
  only athletic staff had keys to the room.

  Response:

  Following the August 10, 2010 primary, ttie Office of the Secretary of the State will issue
  inventory recommendations to the towns, along with sample forms for use in maintaining
  proper inventory records. With regard to proper storage, the Office of the Secretary of
  the State has promulgated procedures covering the type of finding listed above and will
  re-issue those procedures and conduct training for election officials at the next statewide
  conference in September, 2010. In addition, immediately after the audit site visit, we
  assigned our Municipal Liaison to follow up directly with that town to ensure that they
  understand the requirements and adhere to them. We will provide that documentation to
  you under separate cover.

  I trust that this response adequately addresses these issues. Please fell free to contact me
  at (860) 509-6200 if you have any further questions. Thank you again for your
  assistance.




Auditor Note: The attachments noted in Appendix A-1 have not been included; however, they
will be made available to the EAC to resolve the findings and recommendations.




                                           7
                                                                                Appendix A-2




                     EAC RESPONSE TO THE DRAFT AUDIT:
                     OIG Performance Audit Report on the Administration of
                     Payments Received Under the Help America Vote Act by the
                     State of Connecticut, for the Period April 15, 2003 Through
                     January 31, 2010



                                    MEMORANDUM

August 13, 2010


To:            Curtis Crider
               Inspector General
From:          Thomas Wilkey
               Executive Director
Subject:       Draft Report Performance Audit Report – “Administration of Payments
               Received Under the Help America Vote Act by the State of Connecticut”.


Thank you for the opportunity to review and respond to the draft audit report for
Connecticut.

The Election Assistance Commission (EAC) generally concurs with the results of the
review and recommendations. We will make a sample inventory sheet available to the
Connecticut Office of the Secretary of the State (SOS).

EAC notes that the SOS office sent a proposed resolution to the Notice of Finding and
Recommendations (NFR) issued for this audit to the Office of Inspector General (OIG).
Any proposed solution to an audit finding should be addressed to the EAC and not the
OIG.




                                        8
                                                                                        Appendix B

                                    AUDIT METHODOLOGY


Our audit methodology included:

•		 Assessing audit risk and significance within the context of the audit objectives.

•		 Obtaining an understanding of internal control that is significant to the administration of the
    HAVA funds.

•		 Understanding relevant information systems controls as applicable.

•		 Identifying sources of evidence and the amount and type of evidence required.

•		 Determining whether other auditors have conducted, or are conducting, audits of the
    program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed:

•		 Interviewed appropriate SOS employees about the organization and operations of the HAVA
    program.

•		 Reviewed prior single audit report and other reviews related to the state’s financial
    management systems and the HAVA program for the last 2 years.

•		 Reviewed policies, procedures and regulations for the SOS’s management and accounting
    systems as they relate to the administration of HAVA programs.

•		 Analyzed the inventory lists of equipment purchased with HAVA funds.

•		 Tested major purchases and supporting documentation.

•		 Tested randomly sampled payments made with the HAVA funds.

•		 Verified support for reimbursements to local governments (counties, cities, and
    municipalities).

•		 Reviewed certain state laws that impacted the election fund.

•		 Examined appropriations and expenditure reports for state funds used to meet the five
    percent matching requirement for section 251 requirements payments.

•		 Evaluated compliance with the requirements for accumulating financial information reported
    to the Commission on the Financial Status Reports, Forms SF-269 and 425, accounting for
    property, purchasing HAVA related goods and services, and accounting for salaries.

•		 Verified the establishment and maintenance of an election fund.



                                                 9
•		 Conducted site visits of selected counties/towns to perform the following:

     �   Observe equipment purchased with HAVA funds for proper accounting and
         safeguarding.
     �   Ensure compliance with HAVA Act.




                                               10
                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
